OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/IRAQ’S
MONITORING AND
EVALUATION PERFORMANCE
PROGRAM
AUDIT REPORT NO. E-267-08-004-P
July 3, 2008




BAGHDAD, IRAQ

Office of Inspector General


July 3, 2008

MEMORANDUM

TO:        	          USAID/Iraq Mission Director, Christopher D. Crowley

FROM: 	               Director, Office of Inspector General/Iraq, Jay R. Rollins /s/

SUBJECT:	             Audit of USAID/Iraq’s Monitoring and Evaluation Performance Program
                      (Report No. E-267-08-004-P)

This memorandum transmits our final report on the subject audit. The report contains six
recommendations for your action. We have considered management’s comments on the draft
report and have incorporated them into the final report, as appropriate. They have been
included in their entirety in appendix II.

Based on management’s comments, we consider that a management decision has been
reached on all six recommendations. Please provide evidence of final action on each
recommendation to the Audit Performance and Compliance Division upon completion.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




Office of Inspector General/ Iraq
Hammurabi Bldg.
USAID Compound
International Zone
Baghdad, Iraq
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objectives ................................................................................................................ 3


Audit Findings ................................................................................................................. 4 


Is USAID/Iraq’s monitoring and evaluation program 

producing reports that are timely, relevant, and useful for
performance management? .............................................................................................. 4 


     Frequency and Accuracy of Monitoring
     High Risk Activities Should Be
     Strengthened............................................................................................................... 6 


Is USAID/Iraq using results from its monitoring and
evaluation program to manage its portfolio? ..................................................................... 9 


     Documentation of Monitoring and
     Evaluation Reviews Can Be Improved ...................................................................... 10 


     Evaluation Report Was Not Shared With
     Implementing Partner................................................................................................ 12 


     Program Office Cannot Initiate 

     Monitoring and Evaluation Activities ......................................................................... 13 


     Some Awards Do Not Require
     Monitoring and Evaluation Plans............................................................................... 14 


Evaluation of Management Comments ....................................................................... 16 


Appendix I – Scope and Methodology ........................................................................ 17 


Appendix II – Management Comments ....................................................................... 18 


Appendix III – Assessment of Reports........................................................................ 24 

SUMMARY OF RESULTS

The presence of a USAID mission in an active war zone has imposed unique constraints
on USAID’s normal mode of operations. Chief among these constraints has been the
inability of USAID officials to adequately monitor program activities as they are occurring
in the field. To address this constraint, USAID/Iraq employs a contractor to carry out its
monitoring and evaluation program (page 2).

The Office of Inspector General/Iraq conducted this audit to determine: 1) if USAID/Iraq’s
monitoring and evaluation program is producing reports that are timely, relevant, and
useful for performance management, and 2) if USAID/Iraq is using those results to
manage its portfolio (page 3). The audit covers the second phase of this program which
began in May 2005 to provide three years of monitoring and evaluation coverage for
mission programs via a $13.4 million contract with International Business and Technical
Consultants, Inc. (IBTCI) (page 2).

The audit concluded that IBTCI’s monitoring and evaluation reports were generally
timely, relevant to the programs being reviewed, and useful for performance
management. However, the audit found that the reliability of its monitoring reports could
be enhanced if IBTCI coordinated with the U.S. military to spot check the performance of
its field monitors. In addition, the frequency of monitoring high risk activities, such as
trash collection campaigns in Baghdad, should be increased (page 6).

The audit also determined that while USAID/Iraq was generally using the results of its
monitoring and evaluation program to manage its portfolio, the mission could use those
results more effectively by systematically documenting its responses to findings and
recommendations (page 10), and by granting the USAID/Iraq Program Office authority to
initiate monitoring and evaluation activities (page 13). In addition, ensuring that
evaluation reports are shared with implementing partners (page 12) and that awards
specifically require monitoring and evaluation plans would also enhance the
effectiveness of this program (page 14).

Recommendations include: discussing with Provincial Reconstruction Team
representatives the feasibility of obtaining information from using military units to help
verify the accuracy of monitoring reports (page 9); increasing the frequency of
monitoring high risk activities (page 9); documenting compliance with Automated
Directives System 203.3.6.7 for evaluations and responding to findings and
recommendations contained in monitoring reports of mission programs (page 11);
establishing procedures to help ensure that evaluation reports are shared with
implementing partners (page 13); permitting the USAID/Iraq Program Office to initiate
monitoring and evaluation activities (page 14); and helping ensure that acquisition and
assistance awards require implementing partners to submit appropriate monitoring and
evaluation plans (page 15).

In its response to the draft report, USAID/Iraq agreed with all six recommendations and
proposed completion of corrective actions by September 30, 2008. Based on
management’s comments, management decision has been reached on all six
recommendations (page 16).




                                                                                         1
BACKGROUND

The presence of a USAID mission in an active war zone has imposed unique constraints
on USAID’s normal mode of operations. Chief among these constraints has been the
inability of USAID officials to adequately monitor program activities as they are occurring in
the field. USAID/Iraq has repeatedly identified this impediment to effective management
controls in annual reports required under the Federal Managers’ Financial Integrity Act of
1982.

To mitigate this weakness in program oversight, USAID/Iraq instituted the Monitoring and
Evaluation Performance Program (MEPP). Phase I of this program (MEPP I) ran from
June 2003 to May 2005. MEPP II, the subject of this audit, was implemented in May 2005
via a three-year, $13.4 million contract with International Business and Technical
Consultants, Inc. (IBTCI), a strategic consulting firm headquartered in Vienna, Virginia. The
contract contains two one-year options worth an additional $11.4 million.

As its name indicates, MEPP II focuses on monitoring and evaluating USAID/Iraq’s
programs. Monitoring is an ongoing activity intended to provide USAID/Iraq with regular
feedback on program performance. An important facet of monitoring in Iraq is known as
“ground-truthing”, or verifying the actual existence and status of USAID programs and
projects, including those outside the International Zone, as reported by USAID’s
implementing partners. For example, in early 2007 MEPP II produced monthly monitoring
reports on projects implemented under the Community Action Program, which were
intended to provide newly established Provincial Reconstruction Teams with information on
activities in local communities. Evaluations, conversely, are selectively undertaken
analytical efforts intended to determine specific information about USAID activities, such as
program impact or effectiveness. Evaluations typically generate findings, lessons learned,
and recommendations, and can provide crosscutting lessons applicable to other USAID
operating units. MEPP II has produced five evaluations and eighteen monitoring reports,
not including smaller and more limited monitoring engagements, through October 19, 2007.

At USAID/Iraq, the Program Office provides technical oversight of the MEPP II contract and
acts as a liaison between the mission’s functional offices and IBTCI. As a supporting office,
the Program Office serves chiefly in an advisory role, acting as the mission’s monitoring
and evaluation expert and suggesting MEPP II services to the functional offices. Initiation
of MEPP II monitoring and evaluation activities, however, is at the discretion of those
USAID officials with direct responsibility for management of specific programs, such as
contracting and cognizant technical officers.1

As of March 2008, the total amounts obligated and disbursed under this contract were
$19,670,237 and $11,297,290, respectively.




1
  A cognizant technical officer is an individual designated by the contracting or agreement officer
to perform delegated functions as part of overall contract or assistance administration. It is
synonymous with the term contracting officer’s technical representative used elsewhere within the
U.S. Government.


                                                                                                 2
AUDIT OBJECTIVES
As part of its fiscal year 2008 annual audit plan, the Office of Inspector General/Iraq
conducted this audit to answer the following questions:

   •	 Is USAID/Iraq’s monitoring and evaluation program producing reports that are
      timely, relevant, and useful for performance management?

   •	 Is USAID/Iraq using results from its monitoring and evaluation program to manage
      its portfolio?

Appendix I contains a description of the audit’s scope and methodology.




                                                                                     3
AUDIT FINDINGS

Is USAID/Iraq’s monitoring and evaluation program producing
reports that are timely, relevant, and useful for performance
management?
We found that USAID/Iraq’s monitoring and evaluation program – the Monitoring and
Evaluation Performance Program, Phase II (MEPP II) – is generally producing
evaluation reports that are timely, relevant, and useful for performance management. In
general, we found that these reports were both timely and punctual, addressed the
inquiries posed by USAID officials, and contained recommendations that provided
meaningful opportunities for enhancing program effectiveness. We found that this also
applied to monitoring reports. However, we found several weaknesses in the monitoring
of one USAID/Iraq program that diminished confidence in the reliability of some
monitoring reports. These are described in more detail on page six.

To answer this audit objective, we first established criteria for assessing the timeliness,
relevance, and usefulness of monitoring and evaluation program reports. These criteria
were based on discussions with USAID officials, review of Agency guidance, and auditor
judgment. We then assessed twenty-three monitoring and evaluation reports against a
uniform checklist containing these criteria. Detailed results of this analysis are shown in
appendix III.

Furthermore, we surveyed report users and solicited their comments on the reports’
utility. These comments, like our assessments, were generally positive. For example, a
USAID official previously assigned to a Provincial Reconstruction Team (PRT) indicated
that the monthly PRT monitoring reports published in early 2007 were extremely useful.
According to this official, the reports provided PRT members with valuable insight into
ongoing activities in their respective areas, which assisted those members in prioritizing
their efforts. Furthermore, as evidence of their timeliness, these reports were released
at approximately the same time that the PRTs were deployed. Finally, this official stated
that these reports were both thorough and relevant, addressing a myriad of issues of
interest to PRT members.

Another USAID official reiterated these basic themes of the monitoring and evaluation
reports’ high quality and usefulness. For example, this official stated that an evaluation
of the Iraq Civil Society Program indicated that while the contractor fulfilled its
obligations, the program itself had no lasting impact. As a result, the program was not
renewed, allowing USAID’s resources to be more effectively utilized for other programs.

This official also gave other concrete examples of how the monitoring and evaluation
program was aiding other ongoing programs. For instance, in one program jointly
conducted by four implementing partners, this official requested that the MEPP II
contractor identify the strengths and weaknesses of those partners in order to enhance
overall program performance. Similarly, the mission also utilized the contractor’s
capability to expeditiously perform spot checks on issues of immediate concern, which
might have gone unmonitored due to the difficulty and expense of travel outside the
International Zone for U.S. Government employees. For example, the contractor verified



                                                                                         4
the existence and usage of items provided pursuant to a USAID program, such as trash
collection vehicles in southern Iraq and hospital equipment in Baghdad. The cognizant
technical officer for this program remarked that the monitoring and evaluation contractor
did a “good, quick job” on these types of requests, displaying a “good reach.”




Ground-truthing in action: photograph taken by the monitoring and evaluation contractor of a vehicle
identification number pursuant to a monitoring request by a USAID/Iraq official. The vehicle was used in
USAID/Iraq’s Community Action Program. Source: USAID/Iraq.

Lastly, we interviewed USAID/Iraq Program Office officials for their perspective of the
monitoring and evaluation program reports’ timeliness, relevance, and usefulness for
performance management. As both the mission’s performance management experts
and the technical overseer of the monitoring and evaluation contract, the Program Office
is in a unique position to judge the adequacy of monitoring and evaluation program
reports. Program officials uniformly praised these reports, noting, among other things,
the contractor’s professionalism, enthusiasm, and commitment.

However, as noted above, we found several weaknesses in the MEPP II monitoring
program. In summary, the monitoring of high risk activities needed strengthening and
that USAID/Iraq could make better use of the results of its monitoring and evaluation
program to manage its portfolio. Specifically, USAID/Iraq should document its
responses to evaluation report recommendations so as to enhance program
management, systematically share evaluation reports with implementing partners, grant
the USAID/Iraq Program Office the authority to initiate monitoring and evaluation
activities, and ensure that acquisition and assistance awards require awardees to submit
monitoring and evaluation plans.



                                                                                                      5
Frequency and Accuracy of
Monitoring High Risk Activities
Should Be Strengthened

    Summary: In order to be timely and useful for performance management,
    monitoring of high risk activities must be frequent and accurate. In one area of
    Baghdad where evidence of potentially fraudulent trash campaigns has surfaced,
    monitoring activities under the monitoring and evaluation contract had not been
    conducted since July 2007; moreover, statements by U.S. Army officials raised
    doubts about the accuracy of previous monitoring reports. For this particular
    USAID/Iraq program, monitoring efforts shifted to other program elements, while, in
    general, the monitoring and evaluation contractor did not verify the accuracy of
    monitoring reports with local U.S. military officials. Without frequent and accurate
    independent monitoring of high risk activities, vulnerability to fraud is heightened
    and effective performance management is hindered.

Monitoring of high risk activities has not always been frequent, nor in some cases
accurate. Notably, in USAID/Iraq’s high risk Community Stabilization Program (CSP), a
$544 million program, which had a large employment generation component, monitoring
was not frequent enough to ensure that Iraqis hired to carry out clean-up campaign
activities actually carried out these tasks. For example, in March 2008, OIG personnel
traveled to a Forward Operating Base in southern Baghdad to meet with U.S. Army and
Iraqi government officials regarding allegations of fraud in a trash cleaning contract
funded by USAID/Iraq’s Community Stabilization Program (CSP).2 This three-month
contract had a value of $125,850. Specifically, the allegations brought by U.S. Army
officials concerned a CSP-funded contractor paid for work already performed by a
different contractor funded by the U.S. military. OIG personnel questioned a local Iraqi
official whose signed name appeared on a timesheet certifying work performed by the
CSP-funded contractor. This official stated that he had never seen this document, nor
did he sign it, and furthermore believed that his name had been forged. In addition,
another high ranking local Iraqi official stated that other personnel who signed the
document as approving officials were not authorized to do so. It is believed that the
contractor submitted these timesheets to the CSP implementing partner as proof of
completed work.

These timesheets indicated that 170 workers were employed on this cleaning campaign
daily. Regarding these 170 workers, OIG personnel interviewed U.S. Army officials at
both the Forward Operating Base and in the neighborhoods where the CSP-funded
contractor purportedly worked. These officials not only stated that they had been
unaware of the CSP-funded contractor, but that a workforce of 170 persons could not
possibly be deployed in their area of operation without their knowledge. According to
military personnel, this was because their counterinsurgency mission required them to
know their area of operation in such minute detail that even as few as two unknown
persons appearing in the area would be noticed and investigated. For example, after a
U.S. Army official questioned a CSP representative about the suspect contract, a military

2
  See Audit of USAID/Iraq’s Community Stabilization Program, Report No. E-267-08-001-P,
March 18, 2008. The areas of Baghdad mentioned in this section are different from the area in
the previous audit where USAID/Iraq suspended CSP activities.


                                                                                           6
unit observed eight trash workers in yellow jumpsuits entering the neighborhood and
taking photographs.     Based on our personal observation of both the specific
neighborhoods and the conduct of a U.S. Army foot patrol, we agree with the officials’
assertions. Subsequently, U.S. Army officials informed OIG personnel directly of other
dubious contracts that warranted further inquiry.




Photograph taken by OIG personnel while walking with a U.S. Army unit during patrol of a Baghdad
neighborhood. Source: OIG/Iraq.



Frequency of Monitoring - Given these statements regarding phantom workers and
unperformed work, we sought to determine if there had been any monitoring of CSP
trash campaigns in this particular area. According to our review of monitoring reports,
the monitoring and evaluation contractor has not monitored any CSP trash campaigns in
the area patrolled by units from this Forward Operating Base since May 2007.
Furthermore, a monitoring and evaluation contractor official told us that there had been
no overall monitoring of CSP trash campaigns by the monitoring and evaluation
contractor in Baghdad since mid-2007. A Program Office official also stated that there is
no monitoring of these Baghdad trash campaigns scheduled to take place under the
monitoring and evaluation contract in the near future.

According to the monitoring and evaluation program contract, the program’s objective is
to provide continued and regular performance monitoring of USAID/Iraq’s portfolio. In
order for the program to be truly effective as a ground-truthing instrument, high risk
activities, such as Baghdad trash campaigns, require a higher frequency of monitoring.
While monitoring reports covering Baghdad trash campaigns were completed in
December 2006 and July 2007, no further monitoring of this type in Baghdad has been
conducted or scheduled since then. In addition, according to the Government
Accountability Office’s Standards for Internal Control in the Federal Government, the
scope and frequency of separate evaluations depends primarily on the assessment of
risks and the effectiveness of ongoing monitoring procedures. This occurred even as


                                                                                              7
mission officials, by their actions, acknowledged that Baghdad trash campaigns were
highly vulnerable to fraud and abuse. As an additional example, after our trip to
southern Baghdad, OIG personnel received another allegation of the same type of fraud
– CSP trash contracts duplicating work that military contractors were already performing
– emanating from an embedded Provincial Reconstruction Team leader located in a
different part of Baghdad. After mid-2007, however, monitoring and evaluation program
efforts regarding the Community Stabilization Program shifted to other program
elements and locations.

Accuracy of Monitoring – In addition, we expanded our procedures to determine if the
monitoring and evaluation contractor had monitored any CSP trash campaigns in the
area patrolled by units from this Forward Operating Base prior to July 2007 and, if
possible, to assess the accuracy of that monitoring. Consequently, we determined that a
number of visits had been made by the monitoring and evaluation contractor to CSP
trash campaigns in this area, based on specific field monitors’ reports which indicated
that the projects were financed by the CSP implementing partner. These reports
indicated that active work had been performed at those sites, with hundreds of workers
employed.

Although the current U.S. Army unit did not assume responsibilities at this Forward
Operating Base until December 2007, based on reports from predecessor units, a U.S.
Army official stated that “trash was such a problem” for one unit “that they hired their
own contractors.” This official indicated that if this predecessor unit had to resort to
hiring its own contractors it was because this work was not being performed. Another
unit referred to an isolated instance in this area where a small group of CSP workers
was seen, but these were subsequently “kicked out” due to allegations of planting
improvised explosive devices. In addition, a U.S. Army civil affairs officer who had been
in this operating area for nearly a year told OIG officials that approximately one week
earlier he saw a CSP trash worker for the first time. Moreover, the significant numbers
of workers indicated on the monitoring reports – much higher than 170 - could not have
gone unnoticed by military patrols. For these reasons, a U.S. Army official stated that, in
his opinion, the particular contracts that were the subject of these monitoring reports
were “phony.”

The indications of past and present issues with trash collection create a strong
impression that these problems have been well-entrenched and ongoing in this particular
area. As a result, the information received from U.S. Army officials raises questions
about the accuracy of monitoring reports which indicated that active work was ongoing at
the sites visited, with as many as 800 workers reportedly employed. Based on personal
observation of U.S. Army units, in our opinion U.S. military officials are well qualified and
positioned to assess localized conditions.

Senior monitoring and evaluation contractor officials stated that their field monitors do
not perform unannounced site visits, for security reasons. Moreover, these officials
stated that they relied on the review of field reports by a highly experienced monitoring
and evaluation expert to satisfy themselves that the site visits were actually performed.
Furthermore, contractor officials indicated that they did not coordinate with military
officials to verify the accuracy of those reports. We confirmed this lack of coordination
with military officials through inquiry of a Program Office official.

Conclusion - The fact that uncertainty exists about various features of these trash


                                                                                           8
contracts, notwithstanding positive monitoring reports, diminishes the credibility of these
particular ground-truthing activities. Consequently, steps that improve confidence in the
accuracy of field monitoring should make those reports more useful for decision-making.
Additionally, even if the emergence of potentially fraudulent CSP contracts in this
particular area is a relatively new phenomenon, the lack of recent, independent
monitoring contributes to an environment where those activities can flourish and is itself
a weakness of the monitoring and evaluation program. Finally, one of the emergent
lessons of OIG audit and investigative work in Iraq is that activities funded by U.S.
taxpayers require more thorough and frequent oversight, in the field, by U.S. personnel.
The U.S. military is uniquely capable of providing this oversight, and USAID
representatives on Provincial Reconstruction Teams have developed effective
relationships with U.S. military personnel. Consequently, we are making the following
recommendations:

   Recommendation 1: We recommend that USAID/Iraq establish policies and
   procedures to utilize its Provincial Reconstruction Team representatives to obtain
   information from U.S. military officials to assist in verifying the accuracy of field
   monitoring reports.

   Recommendation 2: We recommend that USAID/Iraq take steps to increase the
   frequency of monitoring those activities demonstrated to be highly vulnerable to
   fraud and abuse.


Is USAID/Iraq using results from its monitoring and evaluation
program to manage its portfolio?

We found that, in general, USAID/Iraq was using the results of its monitoring and
evaluation program to manage its portfolio. However, we also found that the mission
could use those results more effectively by systematically documenting its responses to
findings and recommendations, granting the USAID/Iraq Program Office authority to
initiate monitoring and evaluation activities, and ensuring that evaluation reports are
shared with implementing partners.

Interviews with current and former Program Office officials indicated that the extent to
which the monitoring and evaluation program was utilized was highly dependent upon
the attitudes of incumbent office directors and cognizant technical officers (CTOs).
Program Office officials noted that while the current personnel rotation was typically
receptive to the program’s services, this had not always been the case. For example,
the monitoring and evaluation program’s CTO stated that one of his first duties upon
arrival in November 2006 was to help prepare a justification for the continuance of the
program. This was after a portion of the monitoring and evaluation contract, regarding
the development of a web-based monitoring reporting system, was terminated, which
may have negatively affected perceptions of the program. However, a monitoring and
evaluation contractor official stated that the mission had made “huge strides” in utilizing
reports over the past year.

Following are areas in which USAID/Iraq could improve the use of its monitoring and
evaluation program.



                                                                                           9
Documentation of Monitoring
and Evaluation Reviews Can Be
Improved

  Summary: Agency guidance and sound management practice require that USAID
  operating units respond to findings and recommendations in monitoring and
  evaluation reports. While some review of these reports took place, it was
  insufficiently documented. This occurred in several cases because a documented
  response was deemed unnecessary and inefficient. Inadequate documentation of
  responses to monitoring and evaluation reports degrades institutional memory and
  hinders program management.

Monitoring and evaluation activities are key components of both management control
and performance management. While monitoring provides management with early
indications of a program’s progress, evaluations provide deeper insights that can help
the Agency’s operating units achieve their intended results. To maximize the usefulness
of evaluations, Automated Directives System 203.3.6.7 prescribes the responsibilities of
operating units, such as USAID field missions, in responding to evaluation findings.
These responsibilities include systematically reviewing the evaluation results and
determining whether the team accepts each finding or recommendation. Additionally,
operating units should identify any management or program actions needed and assign
clear responsibility and timelines for completion of each set of actions.

Since ADS 203.3.6.7 does not specify exactly how evaluation findings and
recommendations should be addressed, we asked the Program Office director, whose
office advises the mission on the Agency’s monitoring and evaluation policies, if a verbal
response was sufficient. The director stated that a verbal response was not sufficient. In
our opinion, a written response would also be consistent with ADS 596.3.1, which requires
adequate documentation of management control activities, in addition to being a prudent
management practice given the level of personnel turnover at USAID/Iraq. Consequently,
a written response to findings and recommendations in monitoring reports would be
required as well.

We found that while there was some review of evaluation findings and recommendations,
this review was not sufficiently documented to fully comply with Agency policies and sound
management practice. This review consisted primarily of an exit briefing held between
representatives of the monitoring and evaluation contractor, the Program Office, and the
office directly responsible for management of the specific program. Next, a Program
Office official would review the draft evaluation report and make any appropriate
comments. Comments would also be solicited from other USAID officials prior to issuance
of the final report.

We asked an official from one USAID/Iraq office that had the most evaluations performed
on its programs if there was any documentation detailing its responses to the exit
briefings. This official stated that there was none because the briefings were perceived to
be merely informational and too much time and effort would be expended in responding to
each recommendation.            Furthermore, this official also distinguished between
recommendations made by the monitoring and evaluation contractor and those made by
the OIG in audit reports, indicating that the latter required a response. While OIG


                                                                                        10
recommendations do in fact require a response from USAID, ADS 203.3.6.7 explicitly
requires a decision on each evaluation recommendation as well.

Another office also displayed no documentation of evaluation responses. We interviewed
an official from that office, which had had one evaluation performed in 2006 for a program
that was still ongoing. This official was unaware of the existence of the evaluation report.
Moreover, given the age of the report, there was no one in the office who could discuss
the report or the contribution it made to the evaluated program. After discussing the report
with the implementing partner, this official told us that the partner disagreed with the
findings and recommendations. However, there was no contemporaneous documentation
to indicate what action, if any, was taken by former mission officials.

During the Community Stabilization Program audit at USAID/Iraq, released March 2008,
we learned that a third office did not maintain any documentation of responses to
recommendations contained in monitoring reports, contrary to ADS 596.3.1 and sound
management practice. In response to our audit finding, this office has begun to
inventory all recommendations for prioritization with the implementing partner. As part of
this process, a table was developed for each report to track (1) all recommendations that
were made; (2) the office’s response to each recommendation; (3) the implementing
partner's response to each recommendation; (4) the followup action, if any, required for
each recommendation; and (5) the timeline for completing proposed followup actions.
These tables are now attached to program monitoring reports as an annex to help
ensure that appropriate responses are undertaken. This effort will provide a number of
benefits, including more effective use of recommendations and greater historical
information for successor personnel.

Given the short tours and high turnover at USAID/Iraq, inadequate documentation of
monitoring and evaluation reports degrades institutional memory and can lead to
inefficiencies in program management. For example, one USAID official posed a series
of questions for the monitoring and evaluation contractor to investigate regarding a
particular program. This official, however, was not only unaware that a previous
evaluation had already addressed those questions, but also that the evaluation even
existed. Furthermore, progress in monitoring program improvements is hindered without
documented rejection or acceptance of evaluation findings and recommendations.
Consequently, we are making the following recommendation:

   Recommendation 3: We recommend that USAID/Iraq establish policies and
   procedures to document compliance with Automated Directives System
   203.3.6.7 for evaluations and to also document responses to findings and
   recommendations contained in monitoring reports of mission programs
   conducted under the Monitoring and Evaluation Performance Program, Phase II.




                                                                                         11
Evaluation Report Was Not Shared
With Implementing Partner

  Summary: USAID policy states that evaluation reports should be shared and
  discussed with relevant stakeholders, including implementing partners. However,
  one implementer of a major USAID/Iraq program was unaware of a previous
  program evaluation. This occurred because the report was not delivered to and
  reviewed with the partner. Not sharing evaluation reports diminishes program
  effectiveness by foregoing opportunities for improvement.

USAID programs are almost always implemented through partner organizations.
Consequently, communication of performance information with these implementing
partners is an important component of the Agency’s continual efforts to improve results.
To help ensure that this communication occurs, ADS 203.3.6.7 states that USAID
operating units should share and openly discuss evaluation findings, conclusions, and
recommendations with relevant stakeholders, including partners, unless there are
compelling reasons for not doing so.

Notwithstanding this requirement, the implementing partner of a major USAID/Iraq
program was unaware of the existence of a previous evaluation conducted in May 2006.
The evaluation consisted of a review of a number of USAID/Iraq programs that
contained a capacity building element, including this specific major program. The
monitoring and evaluation contractor discovered this condition during a March 2008
evaluation of the program. According to the monitoring and evaluation contractor, the
May 2006 report was not formally delivered to and reviewed with the implementing
partner, even though it was available through USAID’s online evaluations database.

We asked a USAID/Iraq Program Office official if the Program Office was responsible for
delivering evaluation reports to implementing partners. According to this official, the
various technical offices have this responsibility. In addition, the official did not know
why the partner was unaware of the report. We then asked the technical office director if
she was aware why the report was not shared with the partner. The director, who did
not arrive in Iraq until more than one year after the May 2006 evaluation, also did not
know why the partner was unaware of the report. Finally, our review of the evaluation
indicated no compelling reasons for not sharing this report with the partner.

A common part of evaluations is referring to past evaluations of the same program and
determining if relevant recommendations led to improved performance. However, since
the implementing partner was unaware of the evaluation report, any consideration of the
implementation of recommendations was, according to the monitoring and evaluation
contractor, “relatively pointless.” We noted, for example, that a recommendation from the
previous evaluation regarding the desirability of results-oriented indicators was essentially
repeated in the March 2008 evaluation, signifying that the underlying weakness had not
been corrected. By not sharing evaluation reports with its implementing partners,
USAID/Iraq misses opportunities for program improvement. Furthermore, adequately
documenting the results of evaluation reviews with implementing partners enhances
institutional memory. Finally, not utilizing evaluation reports to their fullest extent is an
inefficient use of monitoring and evaluation funds. Consequently, we are making the
following recommendation:



                                                                                          12
   Recommendation 4: We recommend that USAID/Iraq establish policies and
   procedures requiring that evaluation findings, conclusions, and recommendations
   be formally reviewed with the relevant implementing partner, and that the results
   of that review be documented.


Program Office Cannot Initiate
Monitoring and Evaluation
Activities

  Summary: USAID/Iraq’s monitoring and evaluation program was established to
  improve oversight of USAID programs operating in Iraq’s challenging security
  environment. The USAID/Iraq Program Office, however, cannot initiate monitoring
  and evaluation activities for those programs. This is because the Program Office
  acts only as an advisor to those with direct responsibility for program management.
  Consequently, services provided by the monitoring and evaluation contractor have
  been inconsistently utilized across USAID/Iraq’s portfolio.

Since fiscal year 2003, USAID/Iraq has noted in annual reports required under the
Federal Managers’ Financial Integrity Act of 1982 that program implementation and
monitoring are highly vulnerable activities given the prevailing security environment.
Among other things, this situation has impaired the mission’s ability to obtain, maintain,
report, and use reliable and timely information for decision making. The monitoring and
evaluation program was established to increase oversight of USAID/Iraq’s activities and
ameliorate this material weakness.

Notwithstanding this corrective action, the USAID/Iraq Program Office, as the mission’s
performance management experts, cannot initiate monitoring and evaluation activities.
According to Program Office officials, the office serves in an advisory capacity to the
mission’s contracting and cognizant technical officers (CTOs), who have direct
responsibility for program management.           Even though the Program Office can
theoretically elevate recommendations for proposed monitoring and evaluation activities
to the mission director for ultimate decision, Program Office officials feared that repeated
use of this tactic could jeopardize that office’s relationship with other offices, thereby
diminishing its overall effectiveness.

While two of USAID/Iraq’s four main functional offices have made regular use of the
monitoring and evaluation program, two others have not. One of these latter offices, for
example, cancelled a scheduled evaluation for one of its major programs. According to
a Program Office official, the same office rejected a proposed evaluation of another
program because it had already been subject to inquiries from other bodies such as the
Special Inspector General for Iraq Reconstruction and the U.S. Congress, and the office
was planning to prepare a self-evaluation based on this work. The Program Office
confirmed that this self-evaluation had not been done.

However, the various services provided by the monitoring and evaluation contractor do not
duplicate the work of other entities such as the Special Inspector General for Iraq
Reconstruction. Instead, monitoring and evaluation activities form an integral part of the


                                                                                         13
mission’s performance management system. The USAID/Iraq Program Office, by virtue of
both its technical expertise and organizational independence from direct program
management, is uniquely qualified to initiate monitoring and evaluation activities.
Consequently, we are making the following recommendation:

   Recommendation 5: We recommend that USAID/Iraq establish policies and
   procedures permitting the USAID/Iraq Program Office to initiate monitoring and
   evaluation activities conducted under the Monitoring and Evaluation Performance
   Program, Phase II.


Some Awards Do Not Require
Monitoring and Evaluation Plans

  Summary: Sound management practice dictates that acquisition and assistance
  awards specify partners’ responsibilities regarding monitoring and evaluation plans.
  However, two contracts did not contain any such specification. Due to the age of
  these contracts, it is unclear why this condition existed. Without clear language
  specifying partners’ obligations, USAID depends upon their voluntary cooperation
  to develop monitoring and evaluation plans.

As an integral part of the performance management process, ADS 203.3.3 requires
USAID operating units to prepare a performance management plan for each strategic
objective. USAID implementing partners’ monitoring and evaluation plans are a vital
component of the overall performance management plan by assuring that comparable
data will be collected on a regular and timely basis. The legal relationship between the
Agency and an implementing partner, however, is defined in the particular acquisition or
assistance award establishing a USAID program. Given the importance of USAID’s
implementing partners in performance management, a sound and prudent management
practice is for acquisition and assistance awards to specify partners’ responsibilities
regarding the development of monitoring and evaluation plans.

Contrary to this sound management practice, contracts for two USAID/Iraq programs
worth a total of $379 million did not originally contain any language specifying the
implementing partners’ responsibilities regarding monitoring and evaluation plans. A
later modification to one of these contracts did contain language regarding a
monitoring and evaluation plan, but this was geared toward the additional element
enacted by the modification and did not encompass a program-wide plan. A Program
Office official did not know why these two contracts, which were signed in September
2004, did not originally contain such language when contracts enacted later did. This
official believed such omissions were an oversight, and noted that performance
monitoring in the initial phases of the USAID mission in Iraq did not receive the same
emphasis as now.

We did not become aware of any actual adverse effects as a result of the omission of
this language, since the implementing partners have voluntarily established
comprehensive monitoring and evaluation plans for their respective programs. However,
potentially adverse effects exist if future contracts omit this language, since voluntary




                                                                                         14
cooperation is not assured. To minimize this possibility, we are making the following
recommendation:

   Recommendation 6: We recommend that USAID/Iraq establish policies and
   procedures to help ensure that acquisition and assistance awards require
   implementing partners to submit appropriate monitoring and evaluation plans.




                                                                                  15
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Iraq agreed with all six recommendations and
outlined proposed actions for their implementation, to be completed by September 30,
2008. We have considered management’s comments on the draft report and have
incorporated them into the final report, as appropriate. Based on management’s
comments, we consider that a management decision has been reached on all six
recommendations.
Regarding Recommendation 1, the mission intends to issue a policy encouraging its
Provincial Reconstruction Team representatives to obtain information from U.S. military
sources to assist in the verification of field monitoring reports. Accordingly, a
management decision has been reached on Recommendation 1.
Regarding Recommendation 2, the mission detailed a number of steps taken to increase
monitoring of Community Stabilization Program projects. In addition, the mission is
developing a risk analysis framework for its entire portfolio to aid in the development of
effective monitoring strategies as a tool for reducing the potential for fraud and abuse.
Accordingly, a management decision has been reached on Recommendation 2.
Regarding Recommendation 3, the mission intends to issue a policy stipulating that its
responses to findings and recommendations in all monitoring and evaluation reports
must be adequately documented and included as part of the final report. These
responses will also include input from implementing partners.        Accordingly, a
management decision has been reached on Recommendation 3.
Regarding Recommendation 4, the mission intends to issue a policy that requires
implementing partners to acknowledge receipt of monitoring or evaluation reports within
two weeks of transmittal. This policy will also codify the current practice of reviewing
evaluation reports orally with the implementing partner.          These procedures, in
conjunction with the additional input to be solicited from implementing partners as part of
the mission’s response to evaluation findings and recommendations, meet the intent of
the recommendation. Accordingly, a management decision has been reached on
Recommendation 4.
Regarding Recommendation 5, the mission concurred with the recommendation that the
mission establish policies and procedures permitting the USAID/Iraq Program Office to
initiate monitoring and evaluation activities conducted under its monitoring contract. The
mission intends to codify this concurrence in a new mission order to be issued by
September 30, 2008. Accordingly, a management decision has been reached on
Recommendation 5.
Regarding Recommendation 6, the mission stated that it has developed language to be
included in acquisition and assistance awards requiring implementing partners to submit
appropriate monitoring and evaluation plans. Accordingly, a management decision has
been reached on Recommendation 6.
Determination for final action on all six recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC) upon submission of documentation
evidencing completion of the actions proposed by the mission.


                                                                                        16
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General/Iraq conducted this audit in accordance with generally
accepted government auditing standards. The purpose of the audit was to determine (1)
if USAID/Iraq’s monitoring and evaluation program was producing reports that were timely,
relevant, and useful for performance management, and (2) if USAID/Iraq was using results
from its monitoring and evaluation program to manage its portfolio. The audit reviewed
monitoring and evaluation reports completed from the inception of the Monitoring and
Evaluation Performance Program, Phase II (MEPP II) contract in May 2005 until October
19, 2007. We confirmed the completeness of this list with a MEPP II contractor official.
We also reviewed any evidence of ongoing monitoring projects as it became available
during the course of fieldwork. We did not review any other products undertaken pursuant
to the MEPP II contract, such as data quality assessments, nor did we verify any data
contained in the monitoring and evaluation reports we reviewed. Fieldwork was performed
from December 27, 2007 to April 30, 2008 in the International Zone; at a Forward
Operating Base and in nearby neighborhoods in Baghdad, Iraq; and in Washington, DC. At
the end of fieldwork, the MEPP II contract had obligated approximately $19.7 million and
disbursed about $14 million.

Methodology
To answer the first audit objective, we established criteria for assessing the timeliness,
relevance, and usefulness of monitoring and evaluation reports. These criteria were
based on discussions with USAID officials, review of Agency guidance, and auditor
judgment. For example, we incorporated guidance from ADS 203.3.6.6 regarding the
required elements of an evaluation into our review of program reports. We also relied on
the scopes of work for various reports as an additional evaluative tool. In addition, we
utilized monitoring work plans to evaluate the monthly Provincial Reconstruction Team
monitoring reports. These criteria formed a checklist which we used to assess the
monitoring and evaluation reports completed during the time period specified above.

In addition, we communicated with a U.S. Army battalion effects coordinator and an
embedded U.S. Army civil affairs officer during and after our visit to the Forward
Operating Base. We also spoke with the battalion’s commanding officer, several platoon
lieutenants, other U.S. Army soldiers, Iraqi civilians, and local Iraqi officials during our
visit.

To answer the second audit objective, as well as to assist in answering the first, we
interviewed officials from the following USAID/Iraq offices: Program, Democracy &
Governance, Focused Stabilization Program, Capacity Building, Economic Growth &
Agriculture, and Provincial Reconstruction Team, both in person and via e-mail. We also
interviewed USAID officials based in Washington on issues pertaining to the monitoring
and evaluation program. In order to gain an understanding of the MEPP II contractor’s
qualifications, independence, and procedures, we relied on an interview we conducted
with MEPP II officials pursuant to the Community Stabilization Program audit. In
addition, we made other inquiries of MEPP II contractor officials as needed.



                                                                                         17
                                                                             APPENDIX II 




MANAGEMENT COMMENTS




June 24, 2008

MEMORANDUM
UNCLASSIFIED

TO:             Director, Office of Inspector General/Iraq, Jay R. Rollins

FROM:           USAID/Iraq Mission Director, Christopher D. Crowley /s/

SUBJECT:	       USAID/Iraq Management Comments on Audit of USAID/Iraq’s
                Monitoring and Evaluation Performance Program (Report No. E-267-
                08-00X-P)


USAID/Iraq acknowledges delivery of the subject draft audit report dated May 13, 2008,
and provides the following comments on the report and responses to the
recommendations.

General Comments

The Mission agrees with the conclusion in the subject report that the Mission’s
monitoring and evaluation (M&E) program is “generally producing reports that are timely,
relevant, and useful for performance management” and that USAID/Iraq is “generally
using the results of its [M&E] program to manage its portfolio.”

The work under the Monitoring and Evaluation Performance Program II (MEPP II),
performed by International Business & Technical Consultants, Inc. (IBTCI), provides
independent third party monitoring and is just one facet of the M&E functions the Mission
supports in its overall management of the portfolio. The front line of M&E occurs at the
project level, where all implementing partners have M&E contacts to support effective
project implementation.       The USAID Provincial Reconstruction Team (PRT)
representatives provide another layer of field-level monitoring. The Cognizant Technical
Officer (CTO) provides yet another layer of monitoring and frequently requests that
additional steps be taken to strengthen or verify project implementation outputs and
outcomes. In addition to having an M&E specialist in the Mission who advises staff on
performance management policy and practices, the Mission conducts periodic program
performance reviews.




                                                                                      18
                                                                               APPENDIX II 



Recommendation 1: We recommend that USAID/Iraq establish policies and
procedures to utilize its Provincial Reconstruction Team representatives to obtain
information from U.S. military officials to assist in verifying the accuracy of field
monitoring reports.

The Mission generally concurs with this recommendation. A critical component of the
Mission’s overall strategy has been to deploy USAID representatives to the PRTs and
embedded PRTs (ePRTs).            In December 2006, USAID/Iraq initiated a formal
decentralization of field project management and oversight to (i) place the PRT/ePRT
representatives at the center of program implementation; (ii) integrate USAID field
programs more effectively with those of other USG agencies, including the military; (iii)
improve information flows between Baghdad and the field to enhance USAID’s ability to
resolve implementation problems with its partners; and (iv) report on progress in a more
timely and effective manner. USAID PRT representatives are tasked to utilize the assets
around them to gather information. This includes discussions with implementing partner
representatives, site visits, and requesting military colleagues to verify progress or
deficiencies in project implementation.

The Mission cautions against a formal policy that requires PRT representatives to verify
IBTCI field monitoring reports with the U.S. military. Intimate knowledge of project
objectives and the project implementation plan is required to provide accurate and useful
feedback. In addition to project-level monitoring, IBTCI conducts random spot checks to
verify work. IBTCI uses a monitoring protocol comprising tested sampling and survey
methods accompanied by five-tier triangulation to verify findings. Adherence to
recognized monitoring methodologies requires specific training to produce reliable,
relevant results. Military personnel typically do not have such training and therefore the
military does not have a comparative advantage in the verification of field monitoring
reports.

Nevertheless, Management believes that PRT representatives should maintain
established work relationships with the military to share information, as needed and
where opportunities arise. USAID/Iraq will encourage PRT representatives to obtain
information from U.S. military officials to assist in verifying field monitoring reports. Such
information is one important source of field verification information, but not the only
source. This procedure will be formalized as policy in the “Managing for Results”
Mission Order that will be issued by September 30, 2008. Mission Management
therefore requests OIG/I concurrence that a management decision is reached on this
recommendation.

Recommendation 2: We recommend that USAID/Iraq take steps to increase the
frequency of monitoring those activities demonstrated to be highly vulnerable to
fraud and abuse.

The Mission concurs with this recommendation. The Mission has taken steps to
increase the frequency of monitoring for activities that have been demonstrated to be
highly vulnerable to fraud and abuse. In the case of Community Stabilization Program
(CSP), the CTO and the implementing partner recognized the potential for fraud and
abuse. The Mission’s M&E contractor therefore conducted more monitoring of CSP
activities than of any other project. Of the 18 monitoring reports IBTCI has produced for
the Mission to date, ten were on CSP.



                                                                                           19
                                                                            APPENDIX II 



In addition, USAID’s CSP implementing partner, International Relief & Development
(IRD), engages in extensive internal monitoring. CSP has an M&E unit that operates
independently from the technical staff charged with developing and supervising projects.
The USAID-approved M&E Plan for CSP includes standard monitoring forms and
tracking sheets, a clear segregation of duties between technical staff and M&E staff, and
benchmarks for the number of random site visits M&E staff must conduct on each type
of CSP activity. In its monitoring reports, IBTCI confirmed that IRD’s systems have been
well executed. IBTCI confirmed that this is a statistically valid finding based on the
percentage of activities that were randomly sampled given the universe of CSP-funded
projects.

A third source of monitoring information is through USAID field staff based on the PRTs
and ePRTs. Their role in CSP has been codified in a written communication protocol
issued on February 24, 2008. Since its issuance, the Mission has noticed a marked
improvement in the field-level coordination and oversight of CSP activities.

The fourth source of information on CSP is from local Government of Iraq officials and
community leaders. For security reasons and in order to build capacity, CSP works very
closely with these individuals to identify, approve, tender, and execute projects.

A fifth source of CSP monitoring information is the relatively new Quality Assurance /
Quality Control (QA/QC) unit created by IRD. The QA/QC unit performs an internal audit
function.     The unit checks project documentation for compliance with standard
procedures and conducts unannounced field visits to project sites. This enhances the
monitoring capacity of IBTCI, which is not authorized to conduct unannounced site visits.
The QA/QC unit is organizationally separate from both the technical units and the M&E
unit and its findings are reported directly to the IRD Chief of Party.

More generally, the Mission is developing a framework for risk analysis that assesses
each project’s potential for fraud, waste, or abuse. The framework will be formalized and
used in collaboration with the CTO, the Mission’s M&E specialist, and the implementing
partner during Performance Management Plan (PMP) development. This will allow the
Mission and the implementing partners to design appropriate monitoring protocols to
mitigate potential for fraud. This process will be formalized as policy in the “Managing
for Results” Mission Order that will be issued by September 30, 2008. Mission
Management therefore requests OIG/I concurrence that a management decision is
reached on this recommendation.

Recommendation 3: We recommend that USAID/Iraq establish policies and
procedures to document compliance with Automated Directives System 203.3.6.7
for evaluations and to also document responses to findings and
recommendations contained in monitoring reports of mission programs
conducted under the Monitoring and Evaluation Performance Program, Phase II.

The Mission concurs with this recommendation. On March 11, 2008 (beginning with the
Baghdad and Mosul Business Development Project Monitoring Reports), the Mission
introduced procedures to document findings and recommendations in all monitoring and
evaluation reports completed for USAID/Iraq-funded projects. Mission responses to
findings and recommendations (with input from the implementing partner) and final
management decisions on each issue are now outlined in a matrix. The matrix is
included in the final version of each monitoring or evaluation report and is maintained in


                                                                                       20
                                                                               APPENDIX II 



the Mission’s project files. This process will be formalized as policy in the “Managing for
Results” Mission Order that will be issued by September 30, 2008.                  Mission
Management therefore requests OIG/I concurrence that a management decision is
reached on this recommendation.

Recommendation 4: We recommend that USAID/Iraq establish policies and
procedures requiring that evaluation findings, conclusions, and recommendations
be formally reviewed with the relevant implementing partner, and that the results
of the review be documented.

The Mission concurs with this recommendation. Current practice at USAID/Iraq requires
evaluation findings, conclusions, and recommendations related to project performance to
be provided to the implementing partner at a formal oral briefing. In most cases, the
written evaluation report is also shared with the partner. However, if an evaluation is
procurement sensitive or has other sensitive material in it, the Mission reserves the right
to share select findings with the implementing partner through a formal oral briefing to
avoid compromising any sensitive information.

To generate necessary documentation to comply with ADS 203.3.6.7, the Mission has
instituted a procedure that requires the implementing partner to acknowledge receipt of
the monitoring or evaluation report within two weeks of transmittal. The record of receipt
will be maintained electronically in the Mission’s project files. The project files will also
document the outcomes of the formal oral briefing with the implementing partner.

These procedures will be formalized as policy in the “Managing for Results” Mission
Order that will be issued by September 30, 2008. Mission Management therefore
requests OIG/I concurrence that a management decision is reached on this
recommendation.

Recommendation 5: We recommend that USAID/Iraq establish policies and
procedures permitting the USAID/Iraq Program Office to initiate monitoring and
evaluation activities conducted under the Monitoring and Evaluation Performance
Program, Phase II.

The Mission concurs with this recommendation. One of the key roles of the Program
Office (PRO) is to provide expert advice and quality assurance by advising technical
teams and Mission offices on Agency and Mission policies, procedures, and guidelines
related to performance management. PRO staff serve as extended members of the
technical teams and routinely review incoming project reports and attend relevant
meetings. In cases where unexpected issues or questions in project implementation
arise from reports or discussions, the CTO and PRO, working together in the team
context, initiate the process to develop a scope of work for more rigorous monitoring and
verification to be performed. If deeper underlying implementation issues are flagged, the
CTO and PRO work together to develop a scope of work detailing appropriate
methodologies for an evaluation.

PRO also guides technical teams and implementing partners in conducting periodic
reviews of the PMPs (and in some cases requests a data quality assessment) to ensure
that indicators and targets are appropriate, relevant, and offer timely and productive
feedback to staff on implementation progress. The Mission uses the services of IBTCI
under MEPP II as needed throughout the process. These are now standard operating


                                                                                          21
                                                                           APPENDIX II 



procedures that will be codified in the “Managing for Results” Mission Order that will be
issued by September 30, 2008. Mission Management therefore requests OIG/I
concurrence that a management decision is reached on this recommendation.

Recommendation 6: We recommend that USAID/Iraq establish policies and
procedures to help ensure that acquisition and assistance awards require
implementing partners to submit appropriate monitoring and evaluation plans.

The Mission concurs with this recommendation. A PMP is a key component of results-
based management at the project level. The Mission agrees that acquisition and
assistance awards must require implementing partners to submit appropriate M&E plans
in a timely fashion. PRO has already developed relevant language, in partnership with
the Office of Acquisition and Assistance (OAA), to be included in the awards. New
awards now include this language. PRO and OAA have been working together to ensure
that the remaining existing awards are updated to include performance language by
September 30, 2008. Mission Management therefore requests OIG/I concurrence that a
management decision is reached on this recommendation.

Specific Comments on Draft Report

The Mission offers the following comments for consideration in the preparation of the
final report:

Frequency of Monitoring

Page 7, paragraph 1: USAID/Iraq implementing partners conduct continuous field
monitoring at the project level, and IBTCI, as an independent third party, conducts
additional monitoring during discrete periods throughout the project cycle. IBTCI’s work
thus constitutes but one level of field monitoring. We suggest adding the bolded text
below to the two statements at the end of this paragraph to be more factually accurate:

“Furthermore, a monitoring and evaluation contractor official told us that there had been
no overall monitoring of CSP trash campaigns by the MEPP II Contractor since mid-
2007. A Program Office official also stated that there is no monitoring of these Baghdad
trash campaigns scheduled to take place under the MEPP II contract in the near
future.”

Page 7, paragraph 2: There was no IBTCI monitoring of CSP trash removal activities
after mid-2007 because the Mission believed it was also necessary for IBTCI to look at
the other three components of CSP and other CSP locations. In addition, in mid-2007,
CSP began transitioning trash removal responsibilities in Baghdad to the Government of
Iraq, a process that will be completed on June 18, 2008. The transition took longer than
anticipated because of an outcry from ePRTs and military units in Baghdad, who cited
security concerns if CSP did not keep the streets clean. Roadside bombs are frequently
hidden under trash.

Accuracy of Monitoring

Page 8: While fraud may or may not have occurred under the CSP project under its
trash collection campaign, the draft report makes strong statements based on military
hearsay. It is not clear whether these statements were triangulated through contacts


                                                                                      22
                                                                               APPENDIX II 



with IRD, the implementing partner. This is important because the large-scale, high-
profile CSP trash collection activities in Baghdad never covered more than about 50-
60% of the city; and the targeting of those activities was highly localized. Therefore, it
would be difficult to ascertain if the area in question was under CSP contract for trash
removal without verification from IRD.

Page 8, paragraph 4: This paragraph states that “Furthermore, contractor officials
indicated that they did not coordinate with military officials to verify the accuracy of those
reports. We confirmed this lack of coordination with military officials through inquiry of a
Program Office official.” IBTCI’s contract scope of work does not require verification of
its reports with the military. IBTCI has its own scientifically-sound triangulation process
to verify work, designed to be independent from USG influence.

Documentation of Monitoring and Evaluation Reviews Can Be Improved

Page 11, paragraph 2: The report states that “In response to our audit finding, this office
has begun to inventory all recommendations for prioritization with the implementing
partner.” The technical office that manages CSP has documented its responses and
follow-up plans to IBTCI monitoring reports since September 2007, before OIG/I
released the CSP audit. The technical office started responding to the IBTCI monitoring
reports because the staff believed that this added value to CSP.




Drafted: PRO: K. Spainhower 


Cleared: 

PRO: M. Musisi-Nkambwe ________________________               Date: _____________ 

FMO: G. Zegarac ________________________________              Date: _____________ 

RLA: M. Driver _________________________________              Date: _____________ 

OAA: J. Kryschtal _______________________________             Date: _____________ 

A/DMD: J. Seong ________________________________              Date: _____________ 





                                                                                           23
                                                                                                    APPENDIX III



ASSESSMENT OF REPORTS
                                                      Type of
    #                    Report                                      A      B     C      D     E      F     G     H      I
                                                      Report
     1     ICAP I Evaluation Report                  Evaluation      Y      Y     Y      Y     Y      Y     Y      Y     Y
     2     Community Action Group Survey3            Evaluation      Y      Y    n/a    n/a    N4    n/a    Y     n/a    N
     3     ICSP Evaluation Report                    Evaluation      Y      Y     Y      Y     Y      Y     Y      Y     Y
     4     Political Process Assistance              Evaluation      Y      Y     Y      Y     Y      Y     Y      Y     Y
     5     Public Sector Capacity Building           Evaluation      Y      Y    N5      Y     Y      Y     Y      N     Y
     6     CSP Rapid Assessment                      Monitoring     n/a     Y     Y      Y     Y     n/a   n/a     Y    n/a
     7     Baghdad CIES Report                       Monitoring     n/a     Y     Y      Y     Y     n/a   n/a     Y    n/a
     8     Kirkuk/Mosul CIES Report                  Monitoring     n/a     Y     Y      Y     Y     n/a   n/a     Y    n/a
     9     Kirkuk EGY Report                         Monitoring     n/a     Y     Y      Y     Y     n/a   n/a     Y    n/a
    10     Consolidated PRT Report                   Monitoring     n/a    n/a   n/a    n/a    Y     n/a   n/a     Y    n/a
    11     Baghdad, February Report                  Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    12     Baghdad, March Report                     Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    13     Baghdad, April Report                     Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    14     Salah Ad Din, March Report                Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    15     Salah Ad Din, April Report                Monitoring      Y      Y    n/a    n/a    Y     n/a   n/a     Y    n/a
    16     NW Region, Feb Report                     Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    17     NW Region, April Report                   Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    18     South Central, Feb Report                 Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    19     South Central, March Report               Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    20     South Central, April Report               Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    21     South Region, Feb Report                  Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    22     South Region March Report                 Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a
    23     South Region April Report                 Monitoring      Y      Y     Y      Y     Y     n/a   n/a     Y    n/a

         A) Were the draft and final reports provided within the specified due dates established
            by USAID/Iraq?
         B) Do the report's findings and conclusions address the inquiries posed by
            USAID/Iraq?
         C) Are the report's recommendations connected to the findings?
         D) Are the recommendations actionable and consist of meaningful opportunities for
            program improvement?
         E) Is the scope and methodology documented (required for evaluations pursuant to
            ADS 203.3.6.6)?
         F) Are lessons learned documented (required for evaluations pursuant to ADS
            203.3.6.6)?
         G) Is an executive summary included for longer reports (required for evaluations
            pursuant to ADS 203.3.6.6)?
         H) Does the report identify key points clearly, distinctly and succinctly?
         I) Was the report submitted to the Development Experience Clearinghouse (for
            evaluations)?

3
    The CAG Survey was a survey that supported the efforts of the ICAP Evaluation. 

4
    The specific scope was not recorded, though through the report, it is discussed.

5
    It was very difficult in this evaluation to trace the questions in the SOW to their answers in the report.



                                                                                                                  24

U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave., NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
